No.
IN THE

SUPREME COURT OF THE UNITED STATES
SHIRLEYDIMPS
SHIRLEY DIMPS, CSEA Local President, until 06/2017
Petitioner,
vs.
TACONIC CORRECTIONAL FACILITY, TAC
NEW YORK STATE DEPARTMENT OF CORRECTIONS AND COMMUNITY
SUPERVISION, DOCCS
NEW YORK STATE DEPARTMENT OF CIVIL SERVICES, CS
CSEA, INC./CSEA (Civil Service Employees Association, line.)
Respondents,

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Second Circuit

PETITION FOR WRIT OF CERTIORARI
Shirley Dimps (Pro Se)
20 West Mosholu Pkwy. South, 31c, Tower A
Bronx, New York 10468
(347)641-7250
E-mail: ghirteyriimpfiQ3@gmail nom

RECEIVED
JUL 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT. US.

QUESTIONS PRESENTED FOR REVIEW

1. The District Court did not allow petitioner to have a trial by jury why
not? Petitioner paid the fee to file the complaint and indicated on the
complaint “trial by jury.”

2. Petitioner was not provided with the procedural due process of the law by
by the District Court why not?

3. The district court did not give petitioner the opportunity to be able to call
witnesses. Why not?

4. Why did Judge Roman deny petitioner an attorney when requested? This
case is complex. The district court was asked more than once.

5. The District Court violated petitioner U.S. Constitutional rights
which were for the First, Fifth, Seventh and Fourteenth which is not
limited to. Why did this happen?

6. The district court should have known that petitioner employers had
i

violated petitioner U. S. Constitutional rights. The district court
should not have dismissed this case without the due process of
the law, so that, the U.S. Court of Appeals wrongfully affirm the lower
court ruling. Is this true?

7, District Court as well as the Court of Appeals should know that
Congress can abrogate state sovereign immunity in connection to
its power to enforce the Fourteenth Amendment due to discrimination.
Petitioner case should not have been dismissed by both Courts due to
sovereign immunity without having a trial. Why was this case
dismissing by the Courts?

8, Petitioner petition for rehearing was denied and no explanation was given
by the court only stamped mandate on the prior Summary Order with no
current instruction in the letter dated 4/27/2020. What was the
explanation for this?

9. Why did the district court as well as the court of appeals mis leaded
petitioner about the exhaustion of administrative remedies when
n

the Supreme Court had made an opinion on this by Justice Ruth
Bader Ginsburg in the VERDICT which indicated that EEOC “right to sue
letter which is evidence that the administrative exhaustion require was
done, so that, it was need for petitioner to demonstrate the exhaustion
requirement. Why did the Court of Appeals place petitioner case in
jeopardy with this exhaustion requirement?

10.

Petitioner would like to know why the District Court and Court of
Appeals are trying to sabotage this case?

11. Why did Judge Roman aided and/or /helped the Attorney General’s
Office/Respondents in this case? Judge Roman instructed the
exhaustion of administrative remedies to the State respondents.

12. Why did Judge Roman/district court dismissed petitioner Default
Judgement against the Department of Civil Service when they were
not complying with the law?

14. Petitioner was denied justice in the U.S. District Court -Southern
m

District Court of New Yofk nor did the U.S. Court of Appeals provided
Petitioner with U. S. Constitutional rights. It seems to be
to must incompetency and corruption to do so in the Courts? Why?

15.

Petitioner had indicated in the pleading to the District Court that
Taconic C. F./DOCCS violated petitioner Fourth Amendment for
which petitioner had filed a grievance which was not responded
to by Resp. The incident current March 28, 2018. The Office of
Special Investigation (DOCCS) used dogs to search state workers
without any advance notice. DOCCS failed and neglected to follow it
Directive 4936. CSEA, Inc/CSEA was informed but did nothing.
A few co-workers (civilian and Correction Officers were suspended and
fined because of this.)

16. Petitioner is a member of the protective class/group and CSEA, Inc.
CSEA allowed the state respondents to violate petitioner civil
rights under the Constitution and did nothing. CSEA condoned
the discriminatory practices and actions of Taconic/DOCCS. Petitioner
should have been provided with a hearing and documents, so that,
IV

petitioner would have been in the position to prove this case.

17. Petitioner filed an improper practice charges against CSEA, Inc.CSEA
and Taconic C.F./DOCCS for which PERB failed/neglected to properly
process petitioner claim. The respondents were in violation of the
Taylor Law which is not limited to. What is the judicial system doing to
stop business from being so corrupted and are not doing the function
which they were designed to do. It is costing taxpayer money.

18, This case is about the Federal Question but the U.S. District Court
nor the U.S. Court of Appeals seem not to be able to address the
federal question which is deprived petitioner of rights under the
Constitution. Can this Court provide petitioner these rights?

19, Can this Court provide petitioner and petitioner rights under the
Constitution? Please review this case and provide petitioner with
all U.S. Constitutional rights of the United States for Justice.

20. Should petitioner’s case be derived of receiving justice in the courts
v

due to their lack of funding and manpower?

LIST OF PARTIES
The Petitioned is Shirley Dimps, a citizen of the United State of
America. Shirley Dimps was the CSEA Local President of Local
176 at Taconic Correctional Facility, around or about 2009 until 2017.

The Respondents in this case are Taconic Correctional Facility
TAC, New York State Department of Corrections and Community
Supervision DOCCS; New York State Department of Civil Services
CS, and CSEA, Inc./CSEA (Civil Service Employees Association, Inc.).

RELATED CASfeS
Shirley Dimps, Shirley Dimps, CSEA Local President (until 06/2017)
Petitioner, No. 17 cv 08806, United States District Court - Southern District
of New York.

Shirley Dimps, Shirley Dimps, CSEA Local President, (until 06/2017)
Petitioner, No. 19*975 cv, United States Court of Appeals for the Second
Circuit, in New York.
vi

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

i, ii, iii, iv and v

LIST OF PARTIES

vi

RELATED CASES

vi

TABLE OF CONTENTS

vu

APPENDIX TABLE OF CONTENTS
TABLE OF AUTHORITIES

vii, viii,ix and x
x and 1

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

2 - 3

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
. 3-5
ARTICLE III

5

STATEMENT OF THE CASE

5 - 16

REASONS FOR GRANTING THE WRIT

16-19

19

CONCLUSION
APPENDIX
TABLE OF CONTENTS

United States Court of Anneals for the Second Circuit
Appendix A-

United States Court of Appeals for the Second Circuit, Shirley
Dimps v. Taconic Correctional Facility, et aland CSEA, Inc. No.
19-975-cv. Notice of Hearing Date dated Dec. 16, 2019. Oral
vn

Argument Date: January 23, 2020 at 40 Foley Square, New York,
N.Y. 10007.
Appendix B:

Argument (Oral) Calendar. Courtroom 1703, Thursday,
January 23, 2020, 10:00 a.m., Judge’s panel were: Leval,
Raggi and Livingston. 19-975-cv, Shirley Dimps v. Taconic
Correctional Facility, et aland CSEA, Inc. Location the United
States Court of Appeals for the Second Circuit at
Foley Square, New York, N.Y. 10007.

Appendix C:

United States Court of Appeals for the Second Circuit Summary Order, dated 5th day of February, two thousand
twenty. (Stamped at the bottom as Certified Copy Issued on
2/5/2020).

Appendix D:

MOTION for Rehearing ofPanel of Three or En Banc
Judges, dated 2/18/2020, by Petitioner (Dimps), Docket No. 19*
975cv. Addressed to the United States Court of Appeals for the
Second Circuit.

Appendix E:

United States Court of Appeals for the Second Circuit -Notice of
Defective Filing, dated Feb. 19. 2020, Docket 19-975cv.

Appendix F:

United States Court of Appeals for the Second Circuit - Notice of
Defective Filing, dated Feb. 26, 2020, No. 19- 975cv.

Appendix G:

Petition for Rehearing/Rehearing En Banc, dated March 13,
2020, Docket No.l9-975cv, by Petitioner (Dimps) to the United
States Court of Appeals for the Second Circuit.

Appendix H:

Case Status Update Notice, dated March 20, 2020, 19*975cv and
General Docket - Court of Appeals, 2nd Circuit.
Note: Cured Defective Motion on 03/13/2020 located on the
General Docket sheet at 130. See cover page and pages 1 to 9.

Appendix I:

U.S. Court of Appeals- ORDER for Rehearing/Rehearing En
vui

Banc docket 19-975cv, dated 27th day of April, two thousand
twenty. “IT IS HEREBY ORDERED that the petition is denied.”
Appendix J-

U.S. Court of Appeals - MANDATE Summary Order, dated
the 5th day of February, two thousand twenty which was
stamped at the bottom MANDATE ISSUED ON 05/04/2020
on Docket No. 19-975-cv.
United States District Court — Southern District of New York

Appendix K-

United States District Court — Southern District of New York,
300 Quarropas Street, White Plains, N.Y. 10601. Amended
Employment Discrimination Complaint by Shirley Dimps (Pro
Se), dated 1/29/18, Docket No. 17 cv 08806 (NSR), Do you want a
jury trial? Yes, was checked.

Appendix L:

U. S. District Court- Southern District of New York (WP),
CIVIL DOCKET FOR CASE#: 7:17CV08806- NSR,
NelsOn Stephen Roman, Judge. (See pages 1 to 13) dated
5/29/2019.

Appendix M:

U.S. District Court — Southern District of N.Y. OPINION
& ORDER, dated3/20/2019by District Court Judge Nelson
S. Roman.

Appendix N-

U.S. District Court - Southern District of N.Y. JUDGMENT,
Dated 3/21/2019, by Deputy Clerk on 17 cv 08806 (NSR).

Appendix O'-

U.S. District Court - Southern District of N.Y. OPINION &
ORDER, dated3/25/2019, by Judge Nelson S. Roman on
17-CV-08806.

Appendix P:

U.S. District Court - Southern District of New York,
SUPPLEMENTAL JUDGMENT, dated 3/27/2019, by Deputy
Clerk on 17 cv 08806 (NSR).

Appendix Q-

U.S. District Court - Southern District of N.Y. — ORDER, dated
2/7/2020\>y Judge Nelson S. Roman on 17-cv-08806.
ix

Appendix R-

United States District Court- Southern District of N.Y., Letter
by Shirley Dimps to Your Honorable Nelson S. Roman (17-cv08806) which was dated March 16, 2020 about the Petition for
Rehearing/Rehearing En Banc at the United States Court of
Appeals for the Second Circuit which was submitted on March
13, 2020.

Appendix S'

United States District Court — Southern District of New York,
Letter by Shirley Dimps to Your Honorable Colleen
McMahon, ChiefDistrict Judge dated May29, 2020. Note* As
of this date, Petitioner has not received a response from the.
Chief District Judge.

Appendix T:

United States District Court - Southern District of New York
“Discovery” rev. 6/29/2016.

Appendix U:

U. S. District Court — Southern District of New York
Plaintiff is Requesting that the Federal Courts grants Plaintiff
All rights under the 14th Amendment and/or any other laws in

Reference to this Employment Discrimination Case: a. Due
Process of the law, b. Civil Rights of the Law, c. Equal
Protection of the Law and d. which is not limited to
Appendix V-

19-975 U. S. Court of Appeals for the Second Circuit
Brief for State Appellees (cover page and PRELIMINARY
STATEMENT page, and pages 2, 3, 4 and 5 only).
TABLE OF AUTHORITIES

Cases
Chisholm v. Georgia, 2 U.S. 419 (1793)
Alden v. Maine, 527 U.S. 706
x

42 U.S.C. section 1983.
N.Y. Correct. Law section 7 (2)
U.S. Supreme Court- Fitzpatrick v Bitzer, 427 U.S. 445 (1976)
42 U.S.C. section 2000e to 2000e*17, 42 U.S.C. section 1981
U.S.C. section 621 to 634,
Age Discrimination in Employment Act of 1967, 29
42 U.S.C. section 12101 to 12213.
N.Y. Exec. Law section 290 to 297

Statute
Code section 8-101 to 131

OTHER AUTHORITIES
VERDICT Legal Analysis and Commentary from Justia
was available as of June 6, 2019, so that, the U.S. Court of Appeals should have
known of the Supreme Court decision with an opinion of Justice Ruth Bader
Ginsburg.
OPINIONS BELOW
U.S. Court of Appeals — Second Circuit
An Order of the U.S. Court of Appeals — Second Circuit docket no. 19-975
was issued as a Summary Order, dated 5th day of February, two thousand twenty.

Page 1

App. C. U.S. Court of Appeals, in case 19*975 issued an Order on April 27, 2020
about Rehearing//Rehearing En Banc. App. I. The Court of Appeals in 19*975 cv
issued mandate Summary Order, dated the 5th day of February, two thousand
twenty which was stamped at the bottom MANDATE ISSUED ON 05/04/2020.
App. J. It was no accountability of the individual who stamped this “mandate,”
so that, Petitioner wrote to the Chief District Judge on May 29, 2020 on the purpose
of this mandate and current instruction on what to do. This letter was written
to the Chief Judge due to prior complaint against Judge Nelson S. Roman and the
district court on handling of case 17 cv 08806. App. S.

U.S. District Court — Southern District of New York
An Opinion & Ordei1 dated 3/20/2019 for docket no. 17 cv 08806 (NSR) was
issued by the U. S. District Court. App. M A Judgment, dated 3/21/2019, by
Deputy Clerk on case 17 cv 08806 (NSR). App. N.

On 3/25/2019 an Opinion & Order was issued by Judge Nelson S. Roman on
case 17 cv 08806 (NSR). App. O. A Supplemental Judgment dated 3/27/2019 was
issued by the Deputy Clerk on case 17 cv 08806 (NSR) by the U.S. District Court.
App. P. An Order dated 2/7/2020 by Judge Nelson Roman on 17 cv 08806 App. Q.

STATEMENT OF JURISDICTION
Petition for Rehearing/Rehearing En Banc was submitted to the U.S. Court of
Page 2

Appeals on March 13, 2020. App. G. The date on which the U. S. Court of Appeals
for the Second Circuit decided my case was on 27th day of April, Two Thousand
Twenty. (April 27, 2020). IT IS HEREBY ORDERED that the petition is denied.
App. I. Docket No. 19-975.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(AMENDMENTS)
The Fifth Amendment to the United States Constitution States:
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use without just compensation.
The Fourteenth Amendment to the United States Constitution States:
[1.] All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.
[5.] The Congress shall have power to enforce, by appropriate legislation, the
provisions of this article.
The Eleventh Amendment to the United States Constitution States:
The Judicial power of the United States shall not be construed to extend to any suit
in law or equity, commenced or prosecuted against one of the United States by
Page 3

Citizens of another State, or by Citizens or Subjects of any Foreign State.The
Supreme Court has held that Congress can abrogate state Sovereign Immunity
when using its authority under section 5 of the Fourteenth Amendment. The
Supreme Court has also held that federal courts can enjoin state officials from
violating federal law.
The Supreme Court’s ruling in Chisholm v. Georgia, 2 U.S, 419 (1793). The Court
ruled that federal courts had the authority to hear cases in law and equity brought
by private citizens against states and that states did not enjoy sovereign immunity
from suits made by citizens of other states in federal court. Thus, the amendment
clarified Article III, section 2 of the Constitution, which gives diversity jurisdiction
to the judiciary to hear cases “between a state and citizens of another state.”(below).
Wikipedia- (https7/supreme .iustia.com/com/cases/federaI/us/2/419/)
Sovereign Immunity
Justice David Souter, writing for a four-Justice dissent in Alden. said the states
surrendered their sovereign immunity when they ratified the Constitution. A
narrow form of sovereign immunity that limited only the diversity jurisdiction of
the federal courts. He concluded that neither the eleventh Amendment particular
nor the Constitution in general insulates the states Grom suits by individuals.
Wikipedia - Justice Anthony Kennedy later stated in Alden v. Maine, 527 U.S. 706
Wikipedia - (https V/supreme.iustia.com/cases/federal/us/527/706/) (1999))The First Amendment to the United States Constitution States:
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press, or the
right of the people peaceably to assemble, and to petition the Government for a
redress of grievances.
In the United States the right to petition is guaranteed by the First Amendment to
the United States Constitution, which specifically prohibits Congress from
abridging “the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.”
Right to petition in the United States - Wikipedia
Page 4

The Seventh Amendment to the United States Constitution States(Trial by Jury Clause)
In Suits at common law, where the value in controversy shall exceed twenty dollars,
the right of trial by jury shall be preserved, and no fact tried by a jury shall be
otherwise reexamined in any Court of the United States, than according to the rules
of common law.
https-//www.aclu.org/united-states-constitution-llth'and~following-amendnnents
www.law.cornell.edu/constitution/amendments
ARTICLE III
Section 2.
The judicial power shall extend to all cases, in law and equity, arising under this
Constitution, the laws of the United States, and treaties made, or which shall be
made, under their authority!"to all cases affecting ambassadors, other public
ministers and consuls!"to all cases of admiralty and maritime jurisdictionr to
controversies to which the United States shall be a party!--to controversies between
two or more states!"between a state and citizens of another state!"between citizens
of different states!-between citizens of the same state claiming lands under grants
of different states, and between a state, or the citizens thereof, and foreign states,
citizens or subjects.
In all cases affecting ambassadors, other public ministers and consuls, and those in
which a state shall be party, the Supreme Court shall have original jurisdiction. In
all the other cases before mentioned, the Supreme Court shall have appellate
jurisdiction, both as to law and fact, with such exceptions, and under such
regulations as the Congress shall make.
The trial of all crimes, except in cases of impeachment, shall be by jury! and such
trial shall be held in the state where the said crimes shall have been committed! but
when not committed within any state, the trial shall be at such place or places as
the Congress may by law have directed.
Cornell Law School, Legal Information Institute
STATEMENT OF THE CASE
Petitioner filed an Amended Employment Discrimination Complaint case in
District Court -Southern District on January 29, 2018. App. K. Judge Nelson S.
Page 5

Roman was assigned to the case. The nature of this case was that Petitioner had
been discriminated against in promotions due to race and color, age, and disability.
Petitioner (Pro Se) asserted claims in pursuant to:

Title VII of the Civil Rights Act of 1964. 42 U.S.C. section 2000e to 2000e-17- 42
U.S.C. section 1981, for intentional employment discrimination on the basis of race.
My race/color is African American.

Age Discrimination in Employment Act of 1967. 29 U.S.C. section 621 to 034 for
employment discrimination on the basis of age (40 or older). Petitioner was born
in 1954.

Americans with Disabilities Act of 1990. 42 U.S.C. section 12101 to 12213 for
Employment discrimination on the basis of a disability and as amended. Petitioner
was discriminated against due to disability or perceived disability of hearing loss
in both ears.

In addition, Petitioner federal claims, petitioner has asserted claims under the
following which is also located in the Amended Employment Discrimination
Complaint dated 1/29/2018.

New York State Human Rights Law. N.Y, Exec. Law section 290 to 297. for
Employment discrimination on the basis of age, race, color, creed, national origin,
sexual orientation, military status, sex, disability, predisposing genetic character­
istics, marital status.

Page 6

New York City Human Rights Law, N.Y. City Admin, Code section 8-101 to 131. for
employment discrimination on the basis of actual or perceived age, race, color,
creed, national origin, gender, disability, marital status, partnership status, sexual
orientation, ahenage, citizenship status.

Other which may include other relevant federal, state, city, or county lawBreach of contract under the Pendant Jurisdiction. An Amended Employment
Discrimination Complaint included: Taconic C. F. (TAC), NYS (DOCCS), NYS
Dept, of Civil Service (CS) and CSEA, Inc./CSEA.

STATEMENT OF THE CASE (Continues)
Petitioner is concern about this issue in Order & Opinion 3/20/2020 of the U.S.
District CourtThe below Memorandum of Laws from the State Respondents/DOCCS,
Taconic C.F and Dept, of Civil Service represented by Attorney General Office never
mentioned anything about an Exhaustion of Administrative Remedy. In fact, the
Exhaustion of Administrative Remedy was introduced into the case for the state
respondents by Judge Nelson S. Roman in his Opinion & Order on page 5 dated
3/20/2019. (App. M) to aid this case for the respondents and/or to help the Attorney
General Office. In fact, what occurred was that the respondents and/or Attorney
General Office best interest were placed before the U.S. Constitution which has

Page 7

created an abnegation on the part of the Judge, but in the process has deprived
petitioner of rights under the 14th Amendment to the U.S. Constitution which is not
limited to. The U.S. Court of Appeals should have recognized this misconduct and
the violation of the amendment, but it instead AFFIRMED the U. S. District Court
Judge decision who aided in the deprivation of petitioner U. S. Constitutional
rights which is not limited to.

Memorandum of Law in Support of Defendants’ Motion to Dismiss the Ampndpd
Complaint by State Respondents/Attorney General Office, which was dated July 11,
2018. (State Respondents: DOCCS and Taconic C. F.) (On file with the Courts)

Memorandum of Law in Support of Defendant Department of Civil Service’s Motion
To Dismiss the Amended Complaint, hv Respondent/Attorney General Office which
was dated July 24, 2018. (State Respondents/ Dept. Civil Service only) (On file with
the Courts)

Reply Memorandum of Law in Support of Defendants’ Motion to Dismiss t.hp
Amended Complaint bv Respondents/Attorney General Office September 5, 2018.
(State Respondents/DOCCS, Taconic C.F and Dept, of Civil Service). (On file).
Petitioner is concern about this issue in U.S. Court of Appeals for the Second Circuit
in case 19-975:

In below “Brief for State Appellees” (Red) was the first time the state

Page 8

respondents/Attomey General Office mentioned the Exhaustion of Administrative
Remedies in which it indicated “she failed to exhaust her administrative remedies”
located in the PRELIMINARY STATEMENT App. V which was dated Aug.16, 2019.
Prior pleadings for state respondents did not mention exhaustion of administrative
remedies, so that, the U.S. Court of Appeals should not have entertained the Judge
misconduct and violations of the amendments to the U.S. Constitution.
From the date of the District Court Judge aiding the Respondents/Attorney General
the timeline was from 3/20/2019 in the Opinion & Order (App. M) to August 16,
2019 in “Brief for State Appellees” App. V which was around/about 4 months later
for the Attorney General to mention it. The Attorney General’s Office should not
IS

have made the Exhaustion of Administrative Remedies a defense because the
Supreme Court had already issued an opinion on it. In VERDICT — Legal Analysis
and Commentary from Justia in which its state “Use it or Lose it- The Supreme
Court Gets a Procedural Point About Title VII Unanimously Right” by Joanna L.
Grossman dated June 6, 2019. By a vote of 9*0, and with an opinion written by
Justice Ruth Bader Ginsburg. The failure to exhaust administrative remedies can
be raised as a defense by an employer sued under Title VII — but the defense can
also be waived, permitting the lawsuit to proceed despite the absence of an
administrative review. If EEOC decides not to take the case on behalf of the
employee, the EEOC must issue a “right to sue letter,” which is evidence that the
Page 9

administrative exhaustion requirement had been satisfied. (See Fort Bend County
v. Davis). Notwithstanding that petitioner as Local President of the facility at one
time filed with Respondents grievances, complaints with DOCCS Office of Diversity
Management as well as in Labor Agenda to Management about problem issues in
the facility this created a Minutes which was sent to DOCCS in Albany by
Management, so that, petitioner resolved the exhaustion of administrative
remedies with the Agency as well as with the EEOC. If the district court would
have provided petitioner with procedural due process for discovery, it would have
shown the exhaustion of administrative remedies had been satisfied. Petitioner
case was placed in jeopardy by the Attorney General Office for failure or neglect
to be up to date with the law and the U.S. District Court- Southern District
Judge aiding Respondents/Attorney General Office with law that was not current
and the U.S. Court of Appeals for affirming law which were not current or only in
the best interest of the Respondent. All this violated petitioner first, fifth and
fourteenth Amendments.
Brief for State Appellees 19- 975 (App. V) to the U. S. Court of Appeals for the
Second Circuit by Respondents/Attorney General Office August 16, 2019. (State
Respondents/DOCCS, Taconic C.F and Dept, of Civil Service). (On file with the
Courts).

Petitioner is concern about this:
Page 10

A Summary Order was issued on February 5, 2020 by the U. S. Court of
Appeals App. C. See page 5. “As to these letter claims, we REMAND to the district
court to allow Dimps an opportunity to amend her complaint to allege Title VII
claims against DOCCS to the extent she can demonstrate that those claims were
timely exhausted before the EEOC.” Petitioner has indicated to the Courts that
petitioner wanted to stand by the Amended Employment Discrimination Complaint,
so that, why would the U.S. Court of Appeals want petitioner to “demonstrate that
those claims were timely exhausted before the EEOC.” This summary order was
issued 2/5/2020 and the VERDICT Legal Analysis and Commentary from Justia
was available as of June 6, 2019, so that, the U.S. Court of Appeals should have
known of the Supreme Court decision with an opinion of Justice Ruth Bader
Ginsburg which indicated the EEOC issuance of a right-to-sue letter which is
evidence that the administrative exhaustion requirement has been satisfied. In
short, judicial incompetence has placed petitioner case at risk or in jeopardy.

Petitioner is concern about this:
It was mentioned of a Second Amended Complaint in which Judge Nelson S. Roman
had denied in the Conclusion of the Opinion of 3/25/2019. App. O on page 9 and 10
at III. Proposed Amended Complaint. Petitioner do not recall doing a second
amended complaint. Petitioner noted in App. L of the Civil Docket for Case Sheet
at ECF 24 dated 6/12/2018 which indicates “Supplement Plaintiff Proposed
Page 11

Amended Complaint.” In Judge Roman statement, lie indicated “In opposition to
Defendant’s motion to dismiss, Plaintiff appears to suggest that she wishes
to amend her pleading. In her proposed amended pleading,” I do not recall
requesting to amend any pleading which would result in a Second Amended
Complaint. What petitioner did was sent the U.S. District Court a request
entitled “Plaintiff is requesting that the Federal Courts grants plaintiff all rights
under the 14th Amended and/or any other laws about this Employment
Discrimination Case- a. Due Process of the Law, b. Civil Rights of the Law,
c. Equal Protection of the Law and d. Which is not limited to and attached the
definitions of each which was dated May 26, 2018. This booklet was directed to
the district court asking for justice. App. U. Petitioner just pieced together
what happened. The booklet was directed to the District Court only to provide
petitioner with justice. If the district court and/or Judge Nelson S. Roman was
in question about this booklet, they should have contacted petitioner for
clarification but instead they indicated that petitioner want to do a second amended
complaint which was not the case. The Amended Employment Discrimination
Complaint is the complaint petitioner is standing by because it has all that is
needed for this case to go forward. After reviewing notes on July 20, 2020,
petitioner now knows what happen. App. V.
Petitioner is concern about this:
It appears that the Office of the Attorney General, District Court and Court of
Page 12

Appeals may be working under the “under color of “which may be depriving
the petitioner of Constitutional rights as a whole. 42 U.S.C. section 1983.
Petitioner is concern about thisThe Court of Appeals indicated that the “district court correctly dismissed all
claims against Taconic, the facility where Dimps worked, because DOCCS, not
Taconic, was Dimps’s employer, see N.Y. Correct. Law section 7 (2).” How can this
be when? Taconic is the location of the discriminatory practices. The N.Y. Correct.
Law 7 (2) section does not support the above statement by the Court. The Court of
Appeals has engaged in inaccurate interpretation of the law. App. C. As petitioner
indicated, how the courts are defending or protecting each other with no evidence to
support what they are claiming. In short, the courts are defending each other and
failing/neglecting/refusing to uphold the U. S. Constitution which is placing
petitioner case at risk and depriving petitioner with rights under the Amendments.
Petitioner is concern about this
The U.S. Court of Appeals - Second Circuit indicated that “The court also
correctly dismissed Dimps’s ADA, ADEA, section 1981, and state-law claims against
DOCCS and DCS as barred by the Eleventh Amendment.” as well stated “The ADA,
ADEA, and section 1981 do not abrogate states’ sovereign immunity, which New
York has not waived as to any of these claims.” App. C. The U.S. Court of Appeals
Page 13

should have known that Congress can abrogate State sovereign immunity in
connection to its power to enforce the Fourteenth Amendment. Section 5 provides
“a Congressional grant of authority for the federal court system to award money
damages to private individuals who have been subjected to employment
discrimination by a State government” “These provisions limit the sovereign
immunity provided to states by the Eleventh Amendment, especially since the
Fourteenth Amendment imposes substantive limitations on state authority.” See
U.S. Supreme Court- Fitzpatrick v Bitzer, 427 U.S. 445 (1976) which was decided
June 28, 1976. U.S. Court of Appeals violated petitioner Fourteenth Amendment to
the U.S. Constitution by affirming the U. S. District Court - Southern District
decision as well affirming the decision of the U.S. District Com! which did not
provide petitioner with rights under the Fifth Amendment which is not limited to
which deprived petitioner of civil rights. U. S. Court of Appeals should not have
affirmed any parts of the U.S. District Court decision which violated petitioner
rights under the U.S. Constitution including petitioner right under the Seventh
Amendment for a trial by jury. Petitioner had no trial in the U.S. District Court
which is a trial court.

Petitioner has indicated to the other Courts that petitioner (Shirley Dimps) is
Page 14

a member of the Protected Class which is protected under the U.S. Constitution as
well as the NYS Constitution which is not limited to. Petitioner need not say
anything more because the Justice System should be able to intervene to defend the
U.S. Constitution. Once this has taken place, it should be no need for Shirley
Dimps Pro Se, petitioner to stand along to defend self. At this point, the
Department of Justice should be involved to defend our U.S. Constitution
and the civil rights of a member of the protective class. See Fitzpatrick v. Bitzer,
427 U.S. 445 (1976). In short, the Courts are picking law from the air to defend
each other, and the Respondents and the Attorney General's Office are depriving
petitioner of civil rights under the U.S. Constitution and failing the Constitution
itself. Judicial employees need to be held accountable for what they are doing
and/or not doing, and it could be understood that the judicial system is the
framework of our nation which means that knowledgeable and honest people are
needed.

NoteAlexander Hamilton emphasized in Federalist 78 that the courts were designed to
be “bulwarks of a limited Constitution.” The Constitution was written to limit
government power, but those limits are meaningless unless judges enforce the
Constitution and restrain public officials when they overstep their bounds.
Fulfilling the Constitution’s promise of liberty requires judicial engagement.
Article bv the Institute for Justice
Note- I am a citizen of the United States of America. I was bora in America. In
Page 15

fact, the same state, and town as George Floyd around or about 20 years before him.
Mr. Floyd was involved in the incident with the Police Department (Law
Enforcement). Petitioner life path has taken petitioner through the State
workplace, into the U.S. District Court- Southern District, into the U.S. Courts of
Appeals- Second Circuit, but petitioner realize there are different locations in
between. What petitioner has seemed on the journey is that all area needs to be
REFORMED, so that, petitioner as well as others may trust the Criminal Justice
System. Speaking on the workplace itself, REFORM is needed to address the
systemic discrimination that has been going on for so long. Petitioner is a member
of that protective class/group and petitioner was discriminated against too many
time, so that, this is what petitioner knows and have experienced in state service.

REASONS FOR GRANTING THE WRIT
Petitioner respectfully prays that a writ of certiorari will be issued to review
these cases. These cases are at the core of what is happening in the workplace
which expanded over around or about 15 years of state service by petitioner. There
is incompetency and corruption at all levels of the Judicial System and Law
Enforcement (Police Department) should not be the only area being focus on.
Reform is needed in law enforcement, the district court, the court of appeals and the
department of corrections which has been learned through petitioner journey into
these areas through “life journey”. People of America send most of there time in the

Page 16

workplace and it has become a dangerous place to work in. The systemic
discrimination may have a role in this, so that, reform is needed nationally.

Petitioner has filed an Amended Employment Discrimination Complaint on
1/29/2018 in the district court and filed for an appeal on 4/21/2019 for the Court of
Appeals. Petitioner is requesting that the Supreme Court of the United States
to review and/or rule on the Opinions & Orders and Judgments and any decisions of
these Courts which is not limited to. U.S. District Court of the Southern District of
New York for case number 17 cv 08806 (NSR), See Appendix M for Opinion & Order
*

dated 3/20/2019 and Judgment dated 3/21/2019 App. N and App. O for Opinion &
V"
Order dated 3/25/2019 and Supplemental Judgment dated 3/27/2019 App. P.
Opinion & Order dated 2/7/2020 App. Q. The U.S. Court of Appeals the Second
Circuit for case 19*975, Summary Order dated 2/5/2020 App. C and Order for
Rehearing/Rehearing En Banc (denied), dated 4/27/2020, App. I., MANDATE
Summary Order, dated the 5th day of February, two thousand twenty which was
stamped at the bottom MANDATE ISSUED ON 05/04/2020 on case 19-975-cv.
App. J.
Under the First Amendment of the U.S. Constitution, petitioner is petitioning
the Government for a redress of grievances. Petitioner had filed an Amended
Employment Discrimination Complaint on January 29, 2018 to complain of
Page 17

violations of rights under the U.S. Constitution. Petitioner informed Taconic
Correctional Facility about the discriminatory practices in the facility which
limited petitioner from being promoted. Petitioner filed grievances, complaint with
DOCCS’s Diversity Management Office. Petitioner was the Local President of
the facility and had the opportunity of Labor/Management Meetings with the
Facility monthly. DOCCS also had a forum for its local presidents to speak on
complaints and concerns of each facilities under DOCCS.
This is where petitioner realized that we were all complaining about the same
things. This showed petitioner that the employers DOCCS/Taconic C. F. as well as
the union CSEA, Inc./CSEA were not functioning as they should. By petitioner
taking Civil Service examinations, and being passed over for promotions on too
many occasions, petitioner started to realize as well that the Department of Civil
Service was not functioning as it should. These companies employed massive
number of employees and being the local president at the time at Taconic C. F.
petitioner was aware of the fear of harassment and retaliation at the facility.
In fact, petitioner was the example of being denied promotional opportunities so
many times? Petitioner was on the civil service eligible fists for 3 consecutive four
years periods and monitored it and found that petitioner scored higher than some
individual who received promotion over petitioner at Taconic C. F. Many of the
promotional opportunity for petitioner was being blocked by the reassignment
Page 18

and/or transfer list within DOCCS and the laws, rules, and regulations of the
Dept, of Civil Service which was not limited to. This lawsuit is not just about the
petitioner, but it is about the workplace and its systemic discriminatory practices
that infringe on employees to advance themselves in the workplace especially
people of color which have been a long-time member of the protective class/group as
well this is a cry for people with disabilities and older people. Petitioner is
petitioning the government to make changes to reform our workplace. Petitioner
was ever allowed to excel to the different levels of government service due to
the discriminatory practices of petitioner’s employers and the lack of petitioner
union to protect its member who was of the protective class/group.
CONCLUSION
The Supreme Court of the United States may be the only place in America to seek
Justice. For the reason set forth above, please provide these cases with all rights
under the U.S. Constitution and NYS Constitution and any other laws, rules and
regulations for seeking Justice.
Dated: Bronx, New York
July 21, 2020
Respectfully submitted,
Shirley Dimps (Pro Se)
20 West Mosholu Pkwy. South,
31c, Tower A
Bronx, New York 10468
(347) 641- 7250
shir1eydimps93@gmail.com
Page 19

i.

